VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                    Veterans Benefits 

                                                                     Administration 

                                                                    Audit of the Management
                                                                     of Concurrent VA and
                                                                        Military Drill Pay
                                                                         Compensation




                                                                                       June 3, 2014
                                                                                       13-02129-177

             ACRONYMS AND ABBREVIATIONS

DMDC         Defense Manpower Data Center
DoD          Department of Defense
FY           Fiscal Year
IT           Information Technology
ITC          Information Technology Center
OIG          Office of Inspector General
SAO          Systematic Analysis of Operations
USC          United States Code
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                    Report Highlights: Audit of VBA’s
                    Management of Concurrent VA and
                    Military Drill Pay Compensation

Why We Did This Audit                            90 percent unprocessed rate reported in our
                                                 1997 audit. Therefore, it is likely VBA has
Federal regulations prohibit reservists and      not processed hundreds of millions of
National Guard members from concurrently         dollars in offsets since our previous report.
receiving VA compensation or pension             We project VBA has not offset payments of
benefits and military reserve pay, referred to   approximately       $48.9      million    for
in this report as “drill pay,” earned while      FY 2011 and $95.7 million for FY 2012. If
training on weekends and during full-time        VBA improves controls over drill pay offset
training events. We conducted this audit to      processing, we project VBA could recover
determine whether the Veterans Benefits          approximately      $478.5    million    from
Administration (VBA) timely processed VA         FY 2013 through FY 2017 of additional
benefit offsets when drill pay was earned        payments. In total, VBA could recover
concurrently. The audit focused on VA            approximately $623.1 million in improper
benefits offsets for beneficiaries who           payments.
concurrently received drill pay during fiscal
years (FYs) 2011 and 2012.               This    What We Recommend
information represented the most current
data available at the time we began our audit    We recommended the Under Secretary for
in August 2013.                                  Benefits implement measures to ensure drill
                                                 pay offsets are timely processed, process all
What We Found                                    offsets for FYs 2011 and 2012, more
                                                 effectively track and monitor offsets, update
We determined VBA did not timely process         the cost-benefit analysis, and include drill
VA benefits offsets when drill pay was           pay offset processing in SAOs.
earned concurrently. VBA did not timely
offset 601 (86 percent) of 700 cases we          Agency Comments
reviewed for FYs 2011 and 2012. Of the
601 offsets not timely processed,                The Under Secretary concurred with our
553 (79 percent) were not processed and the      recommendations and submitted a corrective
remaining 48 were not processed within           action plan.
VBA’s timeliness standard. According to
VBA, higher priorities, such as processing
compensation claims, took precedence over
processing offsets. VBA also lacked an
adequate tracking mechanism, a current
cost-benefit analysis, and Systematic                      LINDA A. HALLIDAY
Analysis of Operations (SAO) reviews of                 Assistant Inspector General
the drill pay offset process.                           for Audits and Evaluations
VBA’s unprocessed rate for FYs 2011 and
2012 is not significantly different from the
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding                VBA Did Not Timely Process Drill Pay Offsets ................................................2
 

                           Recommendations ...............................................................................................6
 

Appendix A                 Background .......................................................................................................8
 

Appendix B                 Scope and Methodology......................................................................................9
 

Appendix C                 Statistical Sampling Methodology ....................................................................11
 

Appendix D                 Potential Monetary Benefits in Accordance With Inspector General Act 

                           Amendments .....................................................................................................14
 

Appendix E                 Under Secretary for Benefits Comments...........................................................15
 

Appendix F                 Office of Inspector General Contact and Staff Acknowledgments ...................18
 

Appendix G                 Report Distribution............................................................................................19
 
                        Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation



                    INTRODUCTION
Objective           We conducted this audit to determine whether the Veterans Benefits
                    Administration (VBA) timely processed VA benefit offsets when drill pay
                    was earned concurrently. The audit focused on VA benefits offsets for
                    beneficiaries who concurrently received drill pay during fiscal years (FYs)
                    2011 and 2012 or both. This information represented the most current data
                    available at the time we began work in August 2013.

Drill Pay           Military reserve pay, referred to in this report as “drill pay,” is money
                    military reservists and National Guard members earn while training on
                    weekends and during full-time training events.                Section 12316,
                    Title 10, United States Code (10 U.S.C. §12316) and 38 U.S.C. §5304(c)
                    prohibit the concurrent payment of VA compensation or pension benefits and
                    drill pay. In FY 2012, approximately 81,000 beneficiaries received more
                    than $117 million in VA benefits who also received drill pay.

                    VA and the Department of Defense (DoD) have a computer matching
                    program identifying individuals who are receiving VA disability
                    compensation or pension benefits and drill pay. After the end of each fiscal
                    year, VA’s Hines Information Technology Center (ITC) receives information
                    from the Defense Manpower Data Center (DMDC), which includes the
                    number of training days for which each veteran was paid. According to
                    Hines ITC staff, FY 2012 data were received by the Hines ITC from DoD in
                    February 2013, and FY 2011 data were received in April 2012. The ITC
                    sends a notice to veterans that they must waive either their VA compensation
                    or pension benefits or their drill pay. Because VA benefits are usually less
                    than what beneficiaries typically receive through drill pay, beneficiaries most
                    frequently elect to waive VA benefits. If the beneficiary elects to waive VA
                    benefits, VBA processes the offset in order to recoup the overpayment from
                    the veteran’s future monthly VA benefits.

Previous OIG        OIG Report, Review of Veterans Benefits Administration’s Procedures to
Review              Prevent Dual Compensation (Report No. 7RI-B01-089, May 15, 1997)
                    concluded VBA did not offset VA disability compensation in 90 percent of
                    the reviewed cases. We estimated dual compensation payments of
                    $21million were made from FYs 1993 through 1995. Among the
                    recommendations made was for VBA to negotiate a matching agreement
                    with DoD to identify beneficiaries requiring an offset.

Other               The following appendixes provide additional information:
Information
                         Appendix A provides background information
                         Appendix B provides details on the audit’s scope and methodology
                         Appendix C provides the audit’s statistical sampling methodology



VA Office of Inspector General                                                                      1
                      Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation



                    RESULTS AND RECOMMENDATIONS
Finding             VBA Did Not Timely Process Drill Pay Offsets
                    VBA did not timely process VA compensation or pension benefits offsets
                    when drill pay was earned concurrently. We determined VBA did not timely
                    offset 601 (86 percent) of 700 cases reviewed for FYs 2011 and 2012. Of
                    the 601 offsets not timely processed, 553 (79 percent) were not processed
                    and the remaining 48 were not processed within VBA’s timeliness standard
                    of within 105 calendar days from the date notifications were created in
                    VBA’s information technology (IT) system.

                    VBA officials cited higher priorities, such as processing VA compensation
                    claims, took precedence over processing the offsets. Additionally, VBA did
                    not have an adequate offset tracking mechanism, a current cost-benefit
                    analysis to accurately forecast the amount of funds recoverable, and the
                    offset process was not included as part of VBA’s Systematic Analysis of
                    Operations (SAO) reviews.

                    As a result, we projected VBA has not offset payments of approximately
                    $48.9 million for FY 2011 and $95.7 million for FY 2012. If VBA improves
                    controls over drill pay offset processing, we projected VBA could recover
                    approximately $478.5 million from FY 2013 through FY 2017 of additional
                    payments. In total, VBA could recover approximately $623.1 million in
                    improper payments.

Criteria            Section 12316, Title 10, USC and 38 USC §5304(c) prohibits the concurrent
                    payment of VA compensation or pension benefits and military drill pay.
                    VBA policy and guidance requires Veterans Affairs Regional Offices
                    (VAROs) to process offsets within 105 calendar days from the date
                    notifications are created in VBA’s IT system. To meet VBA’s 105-day
                    timeliness standard, VAROs should have processed FY 2011 offsets prior to
                    November 2, 2012, and FY 2012 offsets prior to August 19, 2013.

                    Office of Management and Budget Memorandum M-11-16, Issuance of
                    Revised Parts I and II to Appendix C, Circular A-123, states an improper
                    payment is any payment that should not have been made or that was made in
                    an incorrect amount under statutory, contractual, administrative, or other
                    legally applicable requirements. Incorrect amounts are overpayments or
                    underpayments that are made to eligible recipients, any payment made to an
                    ineligible recipient or for an ineligible good or service or for goods or
                    services not received, or payments that lack sufficient documentation.

Drill Pay           As of August 19, 2013, VBA had not timely processed 601 (86 percent) of
Offsets Not         700 records reviewed of beneficiaries who received VA compensation or
Timely
Processed
                    pension benefits and military drill pay during FY 2011 and/or FY 2012. Of
                    the 601 offsets not timely processed, 553 (79 percent) were not processed


VA Office of Inspector General                                                                    2
                      Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


                    and were valued at approximately $782,000. The average offset not
                    processed was about $1,400 with a single unprocessed offset as high as
                    $19,100. The remaining 48 were not processed within VBA’s timeliness
                    standard of 105 calendar days from the date notifications were created in
                    VBA’s IT system.

                    VBA had timely processed 63 of the 350 FY 2011 offsets reviewed. VBA
                    had not processed 239 (68 percent) of the FY 2011 offsets, which had a value
                    of approximately $333,000. These unprocessed offsets were 290 days
                    beyond VBA’s timeliness standard.          VBA processed the remaining
                    48 FY 2011 offsets but not within the required 105 days.

                    We found VBA did not improve its processing of FY 2012 offsets. VBA
                    had processed 36 (10 percent) of the 350 FY 2012 offsets reviewed. VBA
                    had not processed the remaining 314 (90 percent) FY 2012 offsets, which
                    had a value of approximately $449,000. Table 1 shows the number of
                    FYs 2011 and 2012 offsets timely processed, untimely processed, and those
                    not processed for each sample VARO.

                    Table 1. VARO Offset Processing As Of August 19, 2013
                                            Records           Timely         Untimely       Not
          VARO              Fiscal Year
                                            Reviewed         Processed       Processed   Processed
   Phoenix, AZ                   2011           50                8               6         36
   Phoenix, AZ                   2012           50                5                         45
   St. Paul, MN                  2011           50               14             35           1
   St. Paul, MN                  2012           50               13                         37
   Winston-Salem, NC             2011           50                6               0         44
   Winston-Salem, NC             2012           50                2               -         48
   Buffalo, NY                   2011           50                3               4         43
   Buffalo, NY                   2012           50                3               -         47
   Columbia, SC                  2011           50               15               1         34
   Columbia, SC                  2012           50                3               -         47
   Houston, TX                   2011           50               13               0         37
   Houston, TX                   2012           50                9               -         41
   Seattle, WA                   2011           50                4               2         44
   Seattle, WA                   2012           50                1                         49
     Sub-Totals                  2011          350           63 (18%)         48 (14%)   239 (68%)
     Sub-Totals                  2012          350           36 (10%)            N/A     314 (90%)
     Grand Total            2011–2012          700           99 (14%)         48 (7%)    553 (79%)
   Source: VA OIG analysis of VBA compensation and pension data and DoD drill pay data



VA Office of Inspector General                                                                       3
                      Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


Challenges of       According to VBA officials and VARO management, drill pay offsets have
Timely              not been timely processed because resources were redirected to other
Processing
Offsets
                    priorities, such as rating claims. VBA also did not have an adequate offset
                    tracking mechanism, a current cost-benefit analysis, and the process was not
                    included as part of SAO reviews. Without adequate and reliable program
                    information, VBA cannot make timely and informed management decisions.

Offsets Not         According to VBA officials, competing priorities over the past few years
Processed Due       have limited resources available to conduct non-rating claims activities,
to Other
Priorities
                    which include the processing of drill pay offsets. They cited VBA’s priority
                    to reduce the backlog of 2-year-old rating claims and then the processing of
                    1-year-old rating claims. Non-rating claims involve both compensation and
                    pension benefits, and include activities such as drill pay offsets, dependency
                    changes, claims for veteran burial benefits, and initial death pension claims
                    for widows and widowers.

                    VARO management stated they prioritize their workload based on priorities
                    established by VBA Central Office. VA’s National Key Measures for VBA,
                    which are used to help achieve VA’s strategic goals, relate only to rating
                    claims activities. Non-rating claim activities, which include the processing
                    of drill pay offsets, are not identified as National Key Measures. Therefore,
                    the processing of rating claims activities has been a higher priority than
                    non-rating claims. In addition, some VARO managers stated that, among
                    non-rating claims, certain claims are a higher priority, such as non-rating
                    claims older than 1 year and claims with the greatest effect on the veteran.

Data Tracking       Limitations associated with the design of VBA’s IT system to record and
Challenges          process drill pay offsets have made monitoring the drill pay offset function
                    difficult for VBA management. For example, the IT system used to record
                    and track drill pay offsets does not easily allow VBA to identify all drill pay
                    offsets from other non-rating activities. In addition, only one pending drill
                    pay message is reflected in the IT system, even if offsets have not been
                    processed for a veteran for multiple years. Therefore, VBA management
                    cannot generate reliable reports on drill pay offset activities. As a result,
                    VBA management does not have access to complete and reliable information
                    regarding the number of offsets identified for processing and the number
                    actually processed for any given period of time.

Inaccurate          VBA missed opportunities to be good stewards of VA funds by not timely
Cost-Benefit        processing drill pay offsets. It used an outdated cost-benefit analysis that
Analysis
                    underestimated the opportunity to return a significant amount of funds to
                    VA. VBA’s current Computer Matching Agreement with DoD was signed
                    in FY 2012. The agreement used an FY 2002 analysis and FY 2010 data that
                    estimated $12 million in recoveries for processing drill pay offsets. In the
                    agreement, VBA stated it had no reason to expect the average number of
                    training days per year, the total number of veterans in receipt of dual
                    compensation, or the distribution among veterans with different levels of


VA Office of Inspector General                                                                    4
                      Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


                    disability evaluation would vary significantly from year to year. However,
                    as shown in the figure below, the number of veterans receiving concurrent
                    VA benefits and DoD drill pay and the amount paid to those veterans
                    increased significantly over a 5-year period.

                                 Figure. VA-DoD Dual Compensation For Fiscal Years
                                                2008 Through 2012
                      140
                                                                                                             $117
                      120
                                                                          $98               $98
                      100
                                                       $84                                              81
                                                                  73                  76
                       80             $69         66
                                 59
                       60

                       40

                       20

                        0
                                 FY 2008          FY 2009         FY 2010             FY 2011           FY 2012

                                           Beneficiaries (in thousands)         Dollars (in millions)

                      Source: VA OIG analysis of VBA C&P data and DoD drill pay data
                      Note. Dollar amounts estimated based on VA benefit amount and number of drill days.
                      Numbers have been rounded for reporting purposes.

                    Our analysis of VBA drill pay offset data concluded VBA paid
                    approximately $117 million to VA compensation or pension beneficiaries
                    who also received military drill pay in FY 2012. This is significantly more
                    than VBA’s FY 2012 estimate of $12 million. As a result, VBA lacked
                    reliable information to make an informed decision regarding prioritizing the
                    processing of drill pay offsets.

Drill Pay Offset    VARO staff were not required to include the processing of drill pay offsets in
Activities Not      their SAO reviews. An SAO is a formal analysis of an organizational
Part of SAO
Reviews
                    element or operational function. SAOs provide an organized means of
                    reviewing operations to identify existing or potential problems and propose
                    corrective actions. The Internal Controls SAO includes other match case
                    reviews. However, it does not currently require the SAO to address the drill
                    pay match. If VAROs had conducted annual SAO reviews of the process,
                    the reviews may have identified process weaknesses and the potential
                    monetary impact of not processing the offsets. Given the financial value of
                    the offsets, VBA could benefit by adding the drill pay offset process to its
                    SAO activities.




VA Office of Inspector General                                                                                      5
                      Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


Effect of Not       VBA needs to implement effective controls to ensure drill pay offsets are
Timely              timely processed. In VA’s 2013 Performance and Accountability Report,
Processing
Offsets
                    VA reported that veterans and/or beneficiaries are responsible for notifying
                    VBA of any event that may affect benefit payments. VA stated that current
                    data matching systems rely on outside parties for notification and until
                    proper notice is provided, improper payments occur.

                    We projected VBA has not offset payments of approximately $48.9 million
                    for FY 2011 and $95.7 million for FY 2012. If VBA improves controls over
                    drill pay offset processing, we projected VBA could recover approximately
                    $478.5 million from FY 2013 through FY 2017 of additional payments. In
                    total, VBA could recover approximately $623.1 million of improper
                    payments. Office of Management and Budget guidance defines these
                    payments as improper payments.

Conclusion          VBA can improve its stewardship of VA funds by timely processing drill pay
                    offsets. VBA’s unprocessed rate for FYs 2011 and 2012 is not significantly
                    different from the unprocessed rate reported in our 1997 audit. Therefore, it
                    is likely VBA has not processed hundreds of millions of dollars in offsets
                    since our previous report. VBA officials indicated actions are already being
                    taken to address our findings and recommendations. We will monitor
                    VBA’s progress and follow up on implementation until all proposed actions
                    are completed.

                    Recommendations

                    1. We recommended the Under Secretary for Benefits take measures to
                       ensure drill pay offsets identified after fiscal year 2012 are timely
                       processed.

                    2. We recommended the Under Secretary for Benefits	 ensure fiscal
                       years 2011 and 2012 drill pay offsets are processed.

                    3. We recommended the Under Secretary for Benefits modify existing
                       information technology systems to more effectively monitor, track, and
                       report on drill pay offset activities.

                    4. We r	 ecommended the Under Secretary for Benefits update the
                       cost-benefit analysis regularly and use it to prioritize the processing of
                       drill pay offsets.

                    5. We recommended the Under Secretary for Benefits require Systematic
                       Analysis of Operations be completed annually for drill pay matching
                       activities.




VA Office of Inspector General                                                                    6
                      Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


VBA                 The Under Secretary for Benefits concurred with Recommendations
Management          1 through 5 and provided corrective action plans.             In response to
Comments
                    Recommendations 1 and 2, the Under Secretary stated that VBA will
                    redistribute resources to focus on processing drill waivers and offsets, with a
                    target completion date of April 30, 2015. In response to Recommendation 3,
                    the Under Secretary stated that VBA will modify existing information
                    technology systems to allow for reporting based on fiscal year, with a target
                    completion date of January 31, 2015. In response to Recommendation 4,
                    VBA will regularly update the cost-benefit analysis when renewing the
                    reserve pay reconciliation computer matching agreement, with a target
                    completion date of January 31, 2015. In response to Recommendation 5,
                    VBA provided guidance to VA Regional Offices requiring an annual
                    Systematic Analysis of Operations be completed for drill pay matching
                    activities. VBA requested closure of this recommendation.

                    Although the Under Secretary concurred with all OIG recommendations, the
                    Under Secretary disagreed with our assertion the information technology
                    system used to record and track drill pay offsets does not easily allow VBA
                    to identify all drill pay offsets from other non-rating activities. Appendix E
                    provides the full text of the Under Secretary for Benefits’ comments.

OIG Response        The Under Secretary’s comments and corrective action plans for
                    Recommendations 1, 2, and 4 are acceptable and responsive to the intent of
                    the recommendations. We will monitor implementation of planned actions
                    and will close the remaining recommendations when we receive sufficient
                    evidence demonstrating progress in addressing the identified issues.

                    VBA’s corrective action plan for Recommendation 3 does not fully address
                    the intent of the recommendation. In addition to adding a fiscal year
                    function to the work item message text, VBA should ensure its IT system
                    reflects more than one pending drill pay message in cases where offsets have
                    not been processed for a veteran for multiple years. This will allow VBA
                    management to more accurately and easily identify the total number of drill
                    pay work items for processing. Furthermore, the Under Secretary stated drill
                    pay offsets controlled by a work item 820 or end product 290 can be easily
                    identified. Although this is correct, drill pay offsets involving due process
                    are controlled using end product 600, which at the time of our review, did
                    not provide a specific claim label that could be used to identify drill pay
                    offset in VBA’s IT system. To generate complete and reliable reports on
                    drill pay offset activities, VBA management should ensure identification of
                    all drill pay offsets, regardless which work item or end product is used to
                    control a particular action.

                    We consider Recommendation 5 open until VBA issues written guidance to
                    VA Regional offices requiring an annual Systematic Analysis of Operations
                    be completed for drill pay matching activities.



VA Office of Inspector General                                                                    7
                      Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


Appendix A          Background

VA and DoD          Annually, VA provides the DMDC with a list of beneficiaries who received
Matching            VA compensation or pension benefits during the prior fiscal year. The
Program
                    DMDC then provides VA’s Hines ITC with data identifying veterans who
                    received both VA benefits and drill pay during that fiscal year. For example,
                    data were received by the Hines ITC from DoD in February 2013 for
                    individuals who received VA compensation or pension benefits and drill pay
                    during FY 2012, and FY 2011 data were received from DoD in April 2012.
                    The Hines ITC sends VA Forms 21-8951 to identified beneficiaries and
                    establishes a 90-day diary, which automatically triggers system-generated
                    actions for review by VARO staff.

                    Beneficiaries are instructed to complete and sign the form and either elect to
                    waive VA benefits or DoD drill pay. Beneficiaries are notified to send their
                    responses to the appropriate VARO. For responses received, VARO staffs
                    take any required actions. The Hines ITC provides the names of
                    beneficiaries who did not respond to the appropriate VAROs for action.

                    VARO staffs are responsible for contacting beneficiaries with a notice of
                    proposed adverse action. If beneficiaries do not respond within 65 days of
                    notification, VARO staff must take action to adjust the awards. If
                    beneficiaries waive VA benefits to receive drill pay, VARO staff adjusts the
                    VA award to offset benefits for the same total number of days waived and at
                    the monthly rate in effect on the last day of the fiscal year for which drill pay
                    was received. The adjustments typically occur through the withholding of
                    future benefits. The normal VA rate is restored when a sufficient number of
                    days’ benefits have been withheld.




VA Office of Inspector General                                                                     8
                        Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


Appendix B          Scope and Methodology

Scope               We conducted our audit work from August 2013 through April 2014 to
                    determine whether VBA timely processed drill pay offsets. The audit
                    focused on compensation or pension benefits offsets for beneficiaries who
                    concurrently received drill pay during FYs 2011 and 2012.

Methodology         We conducted interviews with staff at VBA Central Office, Hines ITC, and
                    VAROs to obtain an understanding of the process, controls, and potential
                    causes. We reviewed controls over the process for offsetting VA
                    compensation or pension for beneficiaries who also received drill pay. In
                    addition, we reviewed policies and procedures pertaining to required actions
                    and timeliness standards for offsetting VA compensation or pension for
                    beneficiaries who also received drill pay.
                    Our universe included approximately 95,600 beneficiaries identified as
                    receiving concurrent VA compensation or pension benefits and drill pay
                    during FYs 2011 and 2012. This information represented the most current
                    data available at the time we began our audit in August 2013. These
                    beneficiaries received approximately $212 million in VA benefits, while also
                    receiving concurrent drill pay.

                    We selected a stratified sample of 7 VAROs and reviewed a sample of
                    55 beneficiaries for each of the 7 VAROs. This amounted to a total of
                    385 beneficiaries. To determine whether the offsets were timely processed,
                    we reviewed:
                    •     Applicable electronic records from VBA IT systems
                    •     Hard copy claims files
                    We reviewed drill pay offset processing information and actions up to and
                    including August 18, 2013.

Fraud               In order to obtain reasonable assurance of detecting fraud that may have
Detection           occurred within the context of our objectives, we assessed risks associated
                    with violations of legal or regulatory requirements, fraud, and abuse when
                    developing our audit steps.             We interviewed VBA management
                    concerning potential fraudulent activity with drill pay offsets. We also
                    interviewed VA OIG Office of Investigations to determine if any criminal
                    investigations related to drill pay offsets were ongoing.

                    We did not identify any fraudulent VA compensation or pension payments
                    within the context of our audit objective. However, while analyzing drill pay
                    data, we identified a number of beneficiaries VBA rated as either totally
                    disabled or permanently and totally disabled who received $1.3 million in
                    VA compensation or pension benefits and drill pay during FY 2012. These
                    were provided to VBA as potential red-flag payments either on the part of
                    VBA or DoD. These payments could also be valid, as veterans could receive


VA Office of Inspector General                                                                      9
                      Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


                    compensation or pension payments, while DoD may determine a veteran has
                    the capability to perform assigned military duties. Generally, beneficiaries
                    receive VA pensions when they have been determined to be permanently and
                    totally disabled from one or more nonservice-connected disability. VBA
                    assigns a total disability rating for compensation based on unemployability if
                    a veteran is unable to secure or follow a substantially gainful occupation
                    because of service-connected disabilities. According to VBA officials, VBA
                    and DoD are currently working on an agreement to exchange disability
                    information for DoD to use in fitness for duty determinations.

Data Reliability    We used computer-generated data from VBA’s Corporate Database, which
                    contains compensation or pension beneficiary records, for the period
                    October 1, 2010, through September 30, 2012, to support the scope of our
                    audit. Additionally, we used computer-processed data for FYs 2011 and
                    2012 that DoD provided to VA as part of a Computer Matching Agreement.
                    To test the reliability of data, we compared key elements from our sample
                    selection, such as claim status, VA compensation amount, and number of
                    drill days, with hard copy documentation present in beneficiaries’ claims
                    files and information in VBA’s IT systems. We did not identify any
                    inconsistencies with the reviewed records. As a result, we determined the
                    computer-generated data to be sufficiently reliable to meet the audit
                    objective and support our recommendations.

Government          Our assessment of internal controls focused on those controls relating to our
Standards           audit objectives. We conducted this performance audit in accordance with
                    generally accepted government auditing standards. These standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit objective.




VA Office of Inspector General                                                                   10
                      Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


Appendix C 	 Statistical Sampling Methodology
                    To evaluate VBA’s processing of drill pay offsets, we selected a statistical
                    sample of beneficiaries who concurrently received compensation or pension
                    benefits and military drill pay during FYs 2011 and 2012 or both. Our
                    sample consisted of beneficiaries associated with seven VAROs.

Population	         The population consisted of 95,602 unique beneficiaries who concurrently
                    received compensation or pension benefits and military drill pay during
                    FYs 2011 and 2012 or both.

Sampling Design 	 We grouped VAROs into three strata based on VA compensation or pension
                    dollar amounts paid to beneficiaries who received concurrent drill pay in
                    both FYs 2011 and 2012. The three strata included VAROs with less than
                    $3 million (low), VAROs with $3 million to $6 million (medium), and
                    VAROs with more than $6 million (high). We then randomly selected seven
                    VAROs, two from the low stratum, two from the medium stratum, and three
                    from the high stratum. To avoid clustering of VAROs, at least one VARO
                    was randomly selected from each of VBA’s four regional areas.

                    To ensure all beneficiaries who received concurrent pay during
                    FYs 2011 and 2012 or both were included in our universe, we created two
                    additional strata.  Stratum four included beneficiaries who received
                    concurrent pay only during FY 2012. Stratum five included beneficiaries
                    who received concurrent pay only during FY 2011.

                    We then randomly selected 385 beneficiaries (55 per VARO). Of the
                    selected beneficiaries, 315 received concurrent pay during both
                    FYs 2011 and 2012 (strata one through three). An additional 35 selected
                    beneficiaries received concurrent pay only during FY 2012 (stratum four)
                    and the remaining 35 selected beneficiaries received concurrent pay only
                    during FY 2011 (stratum five). Table 2 shows the population and sample
                    size for each stratum.




VA Office of Inspector General                                                                   11
                      Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


                       Table 2. Population and Sample Size of Beneficiaries by Stratum
                                                                                                    Sample
                                             Stratum                               Population
                                                                                                     Size
                      1 – VAROs with total dollar amount subject to
                          withholding below $3 million (both FYs                      20,300            90
                          2011 and 2012)
                      2 – VAROs with total dollar amount subject to
                          withholding between $3 million and                          32,100            90
                          $6 million (both FYs 2011 and 2012)
                      3 – VAROs with total dollar amount subject to
                          withholding above $6 million (both FYs                        8,100         135
                          2011 and 2012)
                      4 – Beneficiaries who received concurrent VA
                          compensation or pension benefits and drill                  20,800            35
                          pay only during FY 2012
                      5 – Beneficiaries who received concurrent VA
                          compensation or pension benefits and drill                  14,300            35
                          pay only during FY 2011
                         Total                                                        95,600          385
                      Source: VA OIG sample selection performed in consultation with the Office of Audits 

                      and Evaluations statistician 

                      Note. Numbers have been rounded for reporting purposes.

Weights             We calculated population estimates in this report using weighted sample
                    data. We computed sampling weights by taking the product of the inverse of
                    the probabilities of selection at each stage of sampling. We used WesVar
                    software to calculate population estimates and associated sampling errors.
                    WesVar employs replication methodology to calculate margins of error and
                    confidence intervals that correctly account for the complexity of the sample
                    design. We post-stratified the weights in the analysis to ensure sample totals
                    equaled the known population of 95,602 beneficiaries.

Projections         We projected VBA has not offset payments of approximately $48.9 million
and Margins of      for FY 2011 and $95.7 million for FY 2012. For our FY 2012 projection, we
Error
                    computed a plus or minus $16.8 million margin of error based on a
                    90 percent confidence interval and for our FY 2011 projection a $9.4 million
                    margin of error. Margins of error and confidence intervals are indicators of
                    the precision of the estimates. If we repeated this audit with multiple
                    samples, the confidence intervals would differ for each sample but would
                    include the true population value 90 percent of the time. For example, as
                    shown in Table 3, we are 90 percent confident the true population of
                    beneficiaries with unprocessed drill pay offsets for FY 2012 is between
                    $78.9 million and $112.5 million.




VA Office of Inspector General                                                                                12
                      Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


                    For our projection, we used the midpoint of the 90 percent confidence
                    intervals or the range between the lower and upper limits of the confidence
                    intervals. Table 3 shows our statistical projection for these unprocessed
                    offsets.

                                 Table 3. Statistical Projections of Unprocessed Offsets
                                                         Margin of
                                                                               90%        90%
                                                        Error Based
                                                                           Confidence  Confidence
                         Results       Projection         on 90%
                                                                             Interval   Interval
                                                        Confidence
                                                                           Lower Limit Upper Limit
                                                          Interval
                      Unprocessed
                      Offsets              $95.7          +/- $16.8            $78.9              $112.5
                      FY 2012
                      Unprocessed
                      Offsets              $48.9           +/- $9.4            $39.5              $58.3
                      FY 2011
                      Source: VA OIG statistical analysis of audit sample results projected over our audit
                      universe
                      Note. We multiplied the projected unprocessed amount for FY 2012 by five to project
                      the potential unprocessed offsets from FYs 2013 through 2017. This resulted in a 5-
                      year projection of approximately $478.5 million unprocessed offsets for
                      FYs 2013 through 2017 ($95.7 million x 5 years).




VA Office of Inspector General                                                                               13
                      Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


Appendix D          Potential Monetary Benefits in Accordance With
                    Inspector General Act Amendments



                                                                    Better Use of     Questioned
      Recommendation             Explanation of Benefits
                                                                       Funds            Costs


                                 Drill pay offsets not timely 

                                 recouped by VBA projected

               1                                                          $0         $478,500,000
                                 over a 5-year period 

                                 (FYs 2013 through 2017) 


                                 Drill pay offsets not
               2                                                          $0          $ 95,700,000
                                 processed for FY 2012


                                 Drill pay offsets not
               2                                                          $0          $ 48,900,000
                                 processed for FY 2011


                                                            Total         $0         $623,100,000




VA Office of Inspector General                                                                   14
                       Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


Appendix E            Under Secretary for Benefits Comments



                   Department of                               Memorandum
                   Veterans Affairs

           Date:     May 16, 2014

           From:     Under Secretary for Benefits (20)

           Subj:     OIG Draft Report—Audit of Concurrent VA and Military Drill Pay Compensation
                     [Project Number 2013-02129-R9-0108] — VAIQ 7463476

             To:     Assistant Inspector General for Audits and Evaluations (52)

                     1. 	 Attached is VBA’s response to the OIG’s Draft Report: Audit of Concurrent
                          VA and Military Drill Pay Compensation.

                     2. 	 Questions may be referred to Christopher Denno, Program Analyst, at
                          461-9125.




                     Attachment




VA Office of Inspector General                                                                        15
                       Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


                                                                                                 Attachment
                               Veterans Benefits Administration (VBA)
                                   Comments on OIG Draft Report
                     Audit of Concurrent VA and Military Drill Pay Compensation


The Veterans Benefits Administration provides the following comments:

VBA is working diligently to balance all facets of its workload to ensure all Veterans receive timely and
accurate decisions on their claims. One of VBA’s highest priorities has been eliminating the disability
rating claims backlog, and VBA is making great strides towards achieving that goal. In fiscal year (FY)
2013, VBA completed an unprecedented 1.17 million rating claims, and at the same time, completed
875,364 non-rating claims, which include military and drill pay adjustments. This is a 16 percent increase
over the 752,590 non-rating claims completed during FY 2012. Production of non-rating claims continues
to increase this fiscal year; through April 2014, completion of non-rating claims is already 16 percent
ahead of the same period in FY 2013.

Because VBA has completed record numbers of disability rating claims in recent years and the number of
Veterans receiving disability compensation continues to grow, VBA is experiencing comparable growth in
its non-rating workload. This growth is most evident in the areas of dependency claims and drill-pay
adjustments for National Guard and Reserve Component members. VBA’s non-rating teams at the
regional offices continue to be dedicated to working only non-rating claims. Guidance has been issued to
all regional offices to ensure non-rating team members remain focused on non-rating claims and are not
redirected to any other workload areas.

VBA is also attacking the non-rating claims workload through streamlined business processes and the
                                                                                 st
application of new technology. VBA’s Transformation Plan to move to a 21 century, Veteran-centric,
electronic, and efficient claims processing system includes initiatives to address various categories of
non-rating workload, including a technology initiative to automate drill-pay offsets. This initiative, which is
being developed in collaboration with the Department of Defense, will eliminate the need to manually
process drill-pay offsets and reduce the potential for errors.


VBA provides the following technical comment:

Page 4, paragraph 4, line 3:

“For example, the IT system used to record and track drill pay offsets does not easily allow VBA to
identify all drill pay offsets from other non-rating activities.”

VBA Comment: This is incorrect. VBA employees currently have access to reliable information regarding
drill pay waiver workload. In cases where a waiver has not been received, VA information technology
systems employ automatic controls that generate an end product (EP) 820 work item with a drill pay
waiver identifier 90 days after notifications are sent to beneficiaries. If the Veteran does return the waiver,
an EP is established (claim series 290, claim label “Drill Pay Adjustment”) to clearly identify this as
pending drill pay workload. Multiple 290 claims can be pending at one time and each has a date of claim
associated to reflect the fiscal year.


The following comments are submitted in response to the recommendations in the OIG draft
report:

Recommendation 1: We recommend the Under Secretary for Benefits take measures to ensure drill pay
offsets identified after fiscal year 2012 are timely processed.




VA Office of Inspector General                                                                              16
                       Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


VBA Response: Concur. VBA will redistribute resources to focus on processing drill pay waivers and
offsets. Drill pay waivers received after fiscal year 2012 will be processed by April 30, 2015. Additionally,
the planned future automation with DoD will allow VA to process future drill pay waivers in a timely
manner.

Target Completion Date: April 30, 2015.


Recommendation 2: We recommend the Under Secretary for Benefits ensure fiscal years 2011 and 2012
drill pay offsets are processed.

VBA Response: Concur. As stated in response to Recommendation 1, VBA will redistribute resources to
focus on processing drill pay waivers and offsets. Drill pay offsets from fiscal years 2011 and 2012 will be
processed by April 30, 2015.

Target Completion Date: April 30, 2015.


Recommendation 3: We recommend the Under Secretary for Benefits modify existing information
technology systems to more effectively monitor, track, and report on drill pay offset activities.

VBA Response: Concur. In cases where a waiver has not been received, automatic controls are
established in information technology systems by generating an 820 work item with a drill pay waiver
identifier 90 days after notifications are sent to beneficiaries. Regional office employees can view
controls in existing information technology (IT) systems and generate reports for pending actions through
the Veterans Services Network (VETSNET) Operations Reports (VOR). To improve on drill pay waiver
actions reporting, a fiscal year function will be added to the work item message text. This will allow users
to generate pending and completed claims reports based on a fiscal year. The fiscal year function will be
added to the 820 work item message text in January 2015.

Target Completion Date: January 31, 2015.


Recommendation 4: We recommend the Under Secretary for Benefits update the cost-benefit analysis
regularly and use it to prioritize the processing of drill pay offsets.

VBA Response: Concur. VBA will regularly update the cost benefit analysis when we renew the reserve
pay reconciliation computer matching agreement. The next renewal will occur in January 2015.

Target Completion Date: January 31, 2015.


Recommendation 5: We recommend the Under Secretary for Benefits require Systematic Analysis of
Operations be completed annually for drill pay matching activities.

VBA Response: Concur. During the May 15, 2014, Veterans Service Center Managers call, guidance
was provided to regional offices requiring an annual Systematic Analysis of Operations be completed for
drill pay matching activities.

VBA requests closure of this recommendation.




VA Office of Inspector General                                                                            17
                      Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


Appendix F          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	                For more information about this report, please
                                                   contact the Office of Inspector General at
                                                   (202) 461-4720.

                      Acknowledgments	             Timothy Crowe, Director
                                                   Kristopher Kasey
                                                   Anne Mullett
                                                   Bryan Shaw
                                                   Craig Ward




VA Office of Inspector General                                                                   18
                      Audit of VBA’s Management of Concurrent VA and Military Drill Pay Compensation


Appendix G          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




                This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                   19
